SERVICE LIST
PAUL W. HUGHES
Counsel of Record
MICHAEL B. KIMBERLY
McDermott Will & Emery LLP
500 North Capitol Street NW
Washington, DC 20001
(202) 756-8000
phughes@mwe.com
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD.
* 3 copies

Dale K. Galipo, Esq.
LAW OFFICES OF DALE K. GALIPO
21800 Burbank Boulevard, Suite 310
Woodland Hills, CA 90367
Telephone: (818) 347-3333
Facsimile: (818) 347-4118
dalekgalipo@yahoo.com
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD
*1 copy

John T. Fattahi, Esq.
LAW OFFICES OF JOHN C. FATTAHI
21250 Hawthorne Blvd., Ste. 700
Torrance, CA 90503
Telephone: (424) 999-5579
Facsimile: (424) 675-2779
jfattahi@gmail.com
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD
*1 copy

MELANIE T. PARTOW
Law Offices of Melanie Partow
4470 Atlantic Ave. #17433
Long Beach, CA 90807
mpartow@galipolaw.com
818-347-3333
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD
*1 copy

Sharon J. Brunner, Esq.
LAW OFFICES OF SHARON J. BRUNNER
14393 Park Avenue, Suite 100
Victorville, CA 92392
Telephone: (760) 243-9997
Facsimile: (760) 843-8155
sharonjbrunner@yahoo.com
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD
*1 copy

James S. Terrell, Esq.
LAW OFFICES OF JAMES S. TERRELL
15411 Anacapa Road
Victorville, CA 92392
Telephone: (760) 951-5850
Facsimile: (760) 952-1085
jim@talktoterrell.com
Attorneys for Respondents DANIELLA SLATER (by and through her guardian ad litem Sandra
Salazar), DAMIEN SLATER (by and through her guardian ad litem Sandra Salazar), TINA
SLATER, and DAVID BOUCHARD
*1 copy

